<html>
<title> - STIMULUS TRACKING HEARING NO. 4: ENSURING MONEY MEANS SECURITY WHEN BUILDING GSA BORDER STATIONS TO PROTECT THE U.S.A.</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                       STIMULUS TRACKING HEARING
                      NO. 4: ENSURING MONEY MEANS
                         SECURITY WHEN BUILDING
                          GSA BORDER STATIONS
                         TO PROTECT THE U.S.A.

=======================================================================

                                (111-79)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            December 2, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure






                  U.S. GOVERNMENT PRINTING OFFICE
53-803 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California

                                  (ii)





 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
DONNA F. EDWARDS, Maryland           PETE OLSON, Texas
THOMAS S. P. PERRIELLO, Virginia, 
Vice Chair
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)











                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Frazier,Trent, Director, Port of Entry Modernization Program 
  Management Office, Facilities Management and Engineering, 
  Office of Finance, U.S. Customs and Border Protection, U.S. 
  Department of Homeland Security................................     5
Guerin, William, Executive, Recovery Program Management Office of 
  the Public Buildings Service, U.S. General Services 
  Administration.................................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    30
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    31
Oberstar, Hon. James L., of Minnesota............................    33
Ortiz, Hon. Solomon P., of Texas.................................    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Frazier, Trent...................................................   036
Guerin, William..................................................    63

                       SUBMISSIONS FOR THE RECORD

Frazier,Trent, Director, Port of Entry Modernization Program 
  Management Office, Facilities Management and Engineering, 
  Office of Finance, U.S. Customs and Border Protection, U.S. 
  Department of Homeland Security, responses to questions from 
  the Subcommittee...............................................    41
Guerin, William, Executive, Recovery Program Management Office of 
  the Public Buildings Service, U.S. General Services 
  Administration, responses to questions from the Subcommittee...    70

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
  STIMULUS TRACKING HEARING NO. 4: ENSURING MONEY MEANS SECURITY WHEN 
           BUILDING GSA BORDER STATIONS TO PROTECT THE U.S.A.

                              ----------                              


                      Wednesday, December 2, 2009

                  House of Representatives,
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:35 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chairwoman of the Subcommittee] presiding.
    Ms. Norton. Good afternoon. We apologize for the delay. 
There was a press conference that had to be held, and it was 
delayed because of votes.
    I want to welcome all to today's hearing and especially to 
today's panel.
    This fourth stimulus tracking hearing is part of this 
Subcommittee's determination to hold itself as accountable as 
we hold the agencies under our jurisdiction that have received 
so-called "stimulus funds" to simultaneously boost the economy 
and to build and repair facilities in our country.
    By the end of 2010, all the stimulus funds must be 
obligated, the jobs created must be documented, and the 
efficient use of taxpayer dollars to repair and upgrade Federal 
buildings to save energy must be assured. Today's hearing will 
address these issues as they intersect with maintaining 
security and maximizing trade along U.S. borders.
    The American Recovery and Reinvestment Act of 2009, signed 
into law February 17, provided $300 million for the General 
Services Administration to build and retrofit border stations 
and land ports of entry, the largest funding amount at any one 
time. A land port of entry houses the inspection facilities for 
legal border crossing, while a border station houses the Border 
Patrol, which is responsible for monitoring all border activity 
between the two official land ports of entry. There are 163 
border stations across 7,000 miles of borders between the U.S. 
borders with Mexico and Canada.
    The Recovery Act also provided the Department of Homeland 
Security, Customs and Border Protection, with an even larger 
amount, $420 million, for the rehabilitation and construction 
of its 43 owned land ports of entry, 39 of which are along the 
northern border.
    The new GSA facilities funded by the Recovery Act will 
include state-of-the-art vehicle and pedestrian inspection 
facilities that carry LEED energy-efficient features as well, 
and will participate in the GSA art and architecture program 
and design excellence program. The $450 million appropriated to 
the Homeland Security Department for rehabilitation and 
construction needs further explanation inasmuch as these funds 
are limited to facilities along the U.S.-Canada border, which 
sees considerably less action than facilities along the 
southern border. The Subcommittee looks forward to reviewing a 
General Accounting Office report, recently requested by Senator 
Byron Dorgan of North Dakota, on the viability of new 
construction of land ports of entry along the northern border.
    Bear in mind that this Subcommittee's tracking hearings are 
unique because, unlike other funds in the Recovery Act which 
are distributed to States through formulas, GSA, the Economic 
Development Administration and the Smithsonian are solely 
responsible for administering funds and for meeting the terms, 
themselves, of the Recovery Act. The transparency we require 
from GSA on progress must also be available to taxpayers, who 
should be able to track that progress and the jobs in their own 
jurisdictions.
    Today, Members of Congress have indicated an interest in 
these programs in their own congressional districts, indicating 
the importance of this construction for stimulating the 
economy. However, on an average day, GSA reports that $2 
billion in trade takes place at the 163 border stations across 
the southern and northern borders of the U.S. This level of 
economic activity adds substantially to the security mission 
that makes this construction vital today.
    We welcome all of those who have come forward to testify 
today, and I would like to ask the Ranking Member if he has any 
opening remarks.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman. 
Thank you for the opportunity and for holding this fourth in a 
series of oversight hearings by this Subcommittee on the 
Recovery Act funding.
    Now, today, we are focusing specifically on funding for 
land ports of entry and on border stations. Obviously, border 
stations are critical to our country for both security and for 
trade. The free flow of goods and people lawfully crossing our 
borders is crucial to promoting trade and commerce, but 
obviously, at the same time, these border crossings are 
critical to the security of our Nation. So we know that 
enforcing this balance between trade and security is a very 
difficult one. With $2 billion in trade moving through the 163 
border crossings each and every single day, it is crucial to 
our economy.
    Because of this difficult balance, we must ensure that we 
have the proper infrastructure in place to support this mission 
and the individuals who are there.
    The stimulus, or the Recovery Act, provides GSA with $300 
million for land ports of entry and border stations, and GSA 
has identified eight projects in its spending plan for those 
funds. In addition, the stimulus, or the Recovery Act, also 
provided Customs and Border Protection with $420 million for 
land ports of entry within its jurisdiction, as the Chairwoman 
just mentioned. So all of the hearing today is focused on 
border stations.
    I think it's important to highlight the ongoing concerns 
generally about the so-called "stimulus bill."
    Now, first, we need to commend the Chairman of the Full 
Committee, Mr. Oberstar, and the Chairwoman of this 
Subcommittee for, first, their insistence and their struggle--
and they received unanimous support from this Committee when 
that bill was first being discussed and debated--in trying to 
get more money for infrastructure that we all felt would have 
been a good use of money; and secondly, to make sure, once that 
bill was passed, whether you liked it or not, that there would 
be as much accountability and congressional oversight at least 
that we can do on this Committee as possible.
    So I thank both Chairman Oberstar and the Chairwoman of 
this Subcommittee. They deserve, frankly, the gratitude of all 
of us.
    Now, on October 30, the administration released updated 
figures on the Recovery.gov Web site related to the number of 
jobs created and saved. That figure of over 640,000 jobs was 
subsequently called into serious question following 
investigations by a number of news organizations, the GAO and 
Members of Congress.
    Now, some of the issues identified--and we have all heard 
them before--include, for example, jobs that were created or 
saved in congressional districts that don't exist. The number 
of jobs created, in some cases, seemed inconsistent with the 
amount of funding provided.
    Some funding claimed to have saved jobs; actually, those 
funds went to other benefits like to pay raises, not to create 
or save jobs. Some jobs were supposedly saved that were never 
in jeopardy, and I could go on and on and on.
    There have been extensive reports on, frankly, the 
scandalous use of some of those funds and on some of the 
reporting of some of those funds. You know, if those things 
happened in other countries, we wouldn't call that waste; we 
would call it corruption. We call it a lot of things because it 
has been scandalous, as the American people know.
    Now, despite the clear inaccuracy of these figures, they 
remain on the administration's Web site. So to know that they 
are inaccurate, to know they are not true, to know that they 
are false doesn't seem to deter. They are still on the 
administration's Web site.
    The national unemployment rate is now over 10 percent. The 
unemployment rate in Florida is now over 11 percent. Some 
States have unemployment rates from 12 to even over 15 percent. 
So, clearly, we know that it has not worked, particularly with 
the benchmark set by the administration that specifically said 
verbally and in writing that unemployment, if that bill passed, 
would not exceed 8 percent and that 3.5 million jobs would be 
created. In fact, we know that, after that bill passed, we lost 
about an additional 3.5 million jobs.
    I mention that because the American people deserve much 
better. At the very least, they deserve to have an accurate 
report card of how nearly $1 trillion of their money is 
actually being spent and how it is working or not working, in 
particular when the Web site that all of these inaccuracies are 
on has cost $18 million of stimulus money--again, if this 
happens in other countries, we have words for it--$18 million 
for a Web site of stimulus money meant to stimulate the economy 
and to create jobs and a Web site that we know now is grossly, 
at best, inaccurate.
    We, as the Representatives, should insist on accurate 
information. I have stated this before. I have stated that 
since before the passage of the Recovery Act that the 
priorities must be on stimulating the economy and creating 
jobs. Instead of seeing the unemployment rate decrease, we have 
seen an increase; and now there are real questions as to how 
many jobs have actually been created by the Recovery Act versus 
those that are claimed to have been created, which now we know 
are not true, are not accurate and are outright false.
    As we examine the specific issue of border stations today, 
there are real questions as to whether the taxpayer, in fact, 
is getting a good return on investment. While tens of millions 
of dollars are going to small ports of entry with just three to 
five vehicles a day, none of the funds are going to some of the 
busiest ports like Laredo, Texas, which sees nearly 6,000 
travelers and trucks daily.
    Now, I understand that there may be some legislative 
impediments, which again, if that is the case, is just one more 
reason why the bill, frankly, has demonstrated to be a fiasco.
    So I hope that we can get answers today on how many jobs 
have been created and on how these projects were selected. I 
look forward to hearing from the witnesses today. I want to 
thank you all for being here once again.
    As I said at the beginning, at the outset, I particularly 
want to thank the Chairwoman of this Subcommittee and the 
Chairman of the Full Committee for really, really doing 
everything that they can to make sure that we have as much 
accountability as possible.
    Thank you, Madam Chairwoman.
    Ms. Norton. Well, I thank you very much, Mr. Diaz-Balart, 
for your remarks; and I certainly accept your compliments of 
the two Chairs. I should say a word about your criticism of the 
administration, which I, of course, understand. I do want to 
make the record clear on one or two matters before I go on to 
Mr. Arcuri.
    I would agree with you that the 8 percent benchmark, as set 
by the administration, was too high. I can't understand 
precisely why. It may have had a lot to do with the criticism 
that it was receiving about the cost of the stimulus in the 
first place and about the demands that they show that somehow 
they could lick this Great Recession, as it is now called, with 
one dose of stimulus, despite the fact that many of us regarded 
that $800-or-so billion as far too little, especially because 
we read history.
    We read history and learn that, for example, the 
unemployment rate, after President Roosevelt had spent a great 
deal more money than we had in relative real money terms, had 
declined from about 25 percent to 15 percent. Then, by 1937, 
they were calling it his recession rather than Hoover's 
recession.
    If I may recall history for all of us--and none of us were 
here at the time--it took World War II and massive spending to 
bring the United States out of the Great Depression. Those who 
believe that you're going to come out of the Great Recession 
with something less than substantial government spending need 
to reread the history of the New Deal. Those books are selling 
better than ever now.
    I do want to correct for the record something that is 
raised every time we have a hearing, and that is that, when a 
contract is awarded, it has almost nothing to do with when jobs 
come on line and when money begins to flow. No matter what this 
Committee has done--and it could not have done more with 
shovel-ready projects and the rest--there are laws and rules 
that every jurisdiction must abide by. So we look for jobs 
created as the jobs flow through the pipeline, and it is at the 
end of a job that we can tell how many jobs have been there. 
Even the money flows in weekly or in two weekly sessions.
    If we look at the Department of Homeland Security 
headquarters, for example, we say to you with no fear of 
contradiction that, over about 7 years, there will be 38,000 
jobs. Well, if somebody begins to count them up now, one will 
find that we are tooling up for a massive project, and those 
jobs will not show in numbers until years from now. Those 
numbers have been checked everywhere but up and down and 
sideways, and I think they are reliable if we understand how to 
count jobs and, above all, when to count jobs. I do want to say 
that the job accuracy figures for GSA have been conservative 
and well-documented thus far.
    I ask Mr. Arcuri for his opening remarks if he has any.
    Mr. Arcuri. I just want to thank the Chair for holding this 
hearing, and I have no opening remarks. Thank you.
    Ms. Norton. Thank you, Mr. Arcuri. So we will go to our 
panel.
    I am pleased--I want to identify everybody by the correct 
title--to welcome William Guerin, who is the Recovery Program 
Management Office director at the GSA. With him is Trent 
Frazier, who is the director of the Land Port of Entry 
Modernization Program Management Office of the Customs and 
Border Protection, Department of Homeland Security.

   TESTIMONY OF WILLIAM GUERIN, EXECUTIVE, RECOVERY PROGRAM 
MANAGEMENT OFFICE OF THE PUBLIC BUILDINGS SERVICE, U.S. GENERAL 
 SERVICES ADMINISTRATION; AND TRENT FRAZIER, DIRECTOR, PORT OF 
   ENTRY MODERNIZATION PROGRAM MANAGEMENT OFFICE, FACILITIES 
MANAGEMENT AND ENGINEERING, OFFICE OF FINANCE, U.S. CUSTOMS AND 
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Norton. Mr. Guerin, would you proceed first?
    Mr. Guerin. Good afternoon, Chairwoman Norton, Ranking 
Member Diaz-Balart and other Members of the Subcommittee.
    My name is William Guerin, and I am the Recovery Executive 
in the Recovery Program Management Office at GSA's Public 
Buildings Service. Thank you for inviting us to appear before 
you today. I will discuss our Land Port of Entry program, the 
LPOEs, and the challenges of balancing national security with 
the free flow of trade and travel.
    Having just opened U.S. facilities at the new international 
crossing in Calais, Maine, there are now 164 land ports of 
entry along our borders. This includes 42 LPOEs along the 
southern border and 122 others along the northern border. GSA 
owns or leases 120 of these LPOEs, and it provides services to 
DHS, U.S. Customs and Border Protection, for those projects. 
The National Park Service owns one port, and the CBP owns the 
rest of the ports of entry.
    As the program manager of GSA's southern border initiative 
to renovate ports of entry in California and in Arizona in the 
late 1980s, I can attest that GSA and CBP have a long history 
of working together to improve the ports, to increase traffic 
flow across the U.S. border, while ensuring the safety of the 
inspectors who daily man these entries into the United States. 
We continue to work closely with CBP to streamline costs and 
schedules as we develop, deliver and maintain LPOE facilities.
    Together, we have identified four actions that will have a 
huge impact on speeding up the delivery of LPOEs and to ensure 
that they will continue to meet CBP's mission requirements. The 
first one is that CBP will prioritize new construction and 
modernization projects. The second is that GSA will increase 
the use of design/build contracts. The third is that GSA and 
CBP will increase the number of standardized common LPOE 
components. The fourth is that GSA----
    Ms. Norton. I am sorry. There is something blowing in here, 
and I am finding it difficult to hear you. It is not your 
fault.
    Will you speak more into the microphone, please.
    Mr. Guerin. I will do that.
    The fourth is that GSA will use indefinite delivery/
indefinite quantity IDIQ contracts for LPOE design services.
    To further streamline project delivery, we are using a 
consistent approach in LPOE predesign, design and acquisition. 
We consolidated the procurement and funding of commonly used 
services, including feasibility studies, project design and 
special services. We sought two national contracts, one for 
architecture and engineering firms to conduct border station 
feasibility studies and the other to provide LPOE design 
services. Together, these approaches to national contracts help 
reduce delivery times by up to 5 months.
    GSA and CBP work together on many national and regional 
levels. Most importantly, we collaborate very closely to 
identify the highest-priority projects based on CBP's needs, 
and move forward on those LPOEs. In support of that effort, 
your Committee already authorized three of CBP's top priorities 
for 2010: the Tornillo-Guadalupe LPOE in Texas, the Calexico 
West LPOE in California, and the Madawaska LPOE in Maine.
    The Recovery Act gave us an unprecedented and exciting 
opportunity to contribute to our Nation's economic recovery. 
The Recovery Act designated $300 million specifically for LPOEs 
under GSA's jurisdiction. In selecting projects, we used two 
overarching criteria set forth in the legislation, the ability 
of the project to put people back to work quickly and the 
ability to transform Federal buildings into high-performance 
green buildings; and we worked with CBP to set the priorities 
for these projects. Our decisions were made based on the shovel 
readiness of the projects and on the availability of funds that 
we received through the Recovery Act.
    As identified in our project plan, seven LPOEs were 
selected for Recovery Act funding. We are moving forward on 
these projects.
    Notably, we recently broke ground, on October 22, 2009, on 
the modernization of the Mariposa land port of entry in 
Nogales, Arizona. This project is primarily funded by the 
Recovery Act, and it includes the demolition and reconstruction 
of all facilities within America's third-busiest border 
crossing. The Mariposa LPOE will be built to achieve a LEED 
silver certification. It will use electricity-generating 
photovoltaic solar panels, solar-powered domestic hot water and 
advanced lighting. Our goal is to provide up to 20 percent of 
the facility's energy from solar power produced on-site, and 
construction is expected to be completed in 2014.
    The Recovery Act is also helping us to further our efforts 
to green our border crossings while we work through the highest 
priority projects of the CBP. As part of our regular capital 
investment program, we use the U.S. Green Building Council 
Leadership in Energy and Environmental Design, LEED, building 
rating system at our projects at Calais, Maine, and San Luis, 
Arizona--at both of those LPOE facilities. Both of these 
projects are planned to achieve a gold certification with a 
minimum level of LEED silver at several other project 
locations, including Massena, New York, and Jackman, Maine.
    We are leveraging our Recovery Act investments, and are 
using our building inventory, including LPOEs as a proving 
ground for our green building technologies, materials and 
operating regimes. We are evaluating and adopting new ideas and 
products, then analyzing and publicizing our results. We are 
working to become the go-to source for data on the 
environmental and economic payback of new green building 
systems and procedures. Based on smart decisions, our 
investment will lead to the transformation of the green 
economy.
    In addition to the funding we receive directly from the 
Recovery Act, we are also supporting CBP's Recovery Act 
initiatives. CBP Recovery Act funds will be used to replace 
eight aging LPOEs in four States along the northern border. 
Seven projects were awarded on August 14, 2009, using GSA IDIQ 
contracts. The design for these projects is currently under way 
and scheduled for completion by the end of January 2010. The 
recently added Maida LPOE is currently scheduled for award in 
early December, and as of November 27, GSA received almost $88 
million in reimbursable work authorizations from CBP. Of this 
total, GSA has obligated nearly $57 million.
    We continue to follow our aggressive schedule for awarding 
Recovery Act-funded projects. As of November 27, GSA has 
obligated over $1.4 billion of recovery funds for Federal 
building construction and renovation projects, and it has 
expended over $85 million. Of this amount, we obligated $76 
million and expended over $34 million for our LPOE projects.
    In conclusion, our land ports of entry are critical to the 
Nation's security and to its economic health. It is imperative 
that GSA continue to provide and maintain border crossings and 
border inspection facilities that can most effectively and 
efficiently handle the increased demands of the future growth 
of traffic and trade while still protecting America's border 
security. We look forward to working with you and with the 
Members of the Committee as we continue to deliver this 
important work; and I welcome any questions you might have.
    Ms. Norton. Thank you very much, Mr. Guerin.
    We want to hear now from Director Trent Frazier of the Land 
Port of Entry Modernization Program.
    Mr. Frazier, please proceed.
    Mr. Frazier. Chairwoman Norton, Ranking Member Diaz-Balart 
and Members of the Subcommittee, thank you for the opportunity 
to appear before you today.
    Today, I will discuss how CBP, in partnership with the U.S. 
General Services Administration, is employing the $720 million 
provided by the American Recovery and Reinvestment Act of 2009 
for the modernization of our land ports of entry. Through the 
Recovery Act, CBP will be able to ensure the safety and 
security of our Nation while stimulating the national economy.
    CBP is responsible for securing our Nation's borders at and 
between the ports of entry while facilitating the lawful 
movement of goods and travelers across our Nation's borders. 
The scope of our mission is immense. Between the ports of 
entry, we employ more than 20,000 agents to secure more than 
5,000 miles of border between the United States and Canada and 
Mexico. In addition, within the ports of entry, we employ more 
than 21,000 highly trained law enforcement professionals to 
operate 326 land, air and sea ports of entry around the United 
States. During fiscal year 2009 alone, CBP processed more than 
361 million pedestrians and passengers across the borders. We 
processed 109 million conveyances and 25.8 million trade 
entries as well. In addition, we examined more than 5.2 million 
containers, and performed over 26.8 million agricultural 
inspections.
    As a result of these activities, CBP was able to apprehend 
more than 556,000 illegal aliens attempting to enter the United 
States, and CBP seized more than 4.5 million pounds of illegal 
drugs.
    In order to accomplish our mission at the ports of entry, 
CBP relies on a multilayered enforcement strategy that rests 
upon three integral components: a highly professional 
workforce, state-of-the-art technology and a robust network of 
facilities and infrastructure.
    Since our inception in 2003, CBP has worked diligently to 
expand its cadre of law enforcement professionals and to equip 
them with a suite of advanced screening and inspection 
technologies, but we have continued to struggle with land port 
facilities that reflect missions and strategies no longer 
relevant in a post-9/11 world. The funding provided through the 
American Recovery and Reinvestment Act of 2009 is a critical 
step to modernizing the land port infrastructure, which is a 
pivotal component to our mission and to the security of our 
Nation's borders.
    In total, CBP operates 164 land port inspection facilities. 
Of these 164 facilities, CBP actually owns 43, 39 of which are 
located along the northern border and four along the southern 
border. Of the remaining 121, 120 are owned or leased by the 
U.S. General Services Administration, and the remaining one is 
owned by the National Park Service.
    When Congress appropriated the $720 million dedicated for 
port modernization, it divided the funding between CBP and GSA, 
allocating $420 million for the modernization of CBP-owned 
facilities and $300 million for the modernization of GSA-owned 
ports. As a result, CBP, in partnership with GSA, will be able 
to modernize as many as 31 port facilities along the northern 
and southern borders, and accomplish substantial repairs and 
enhancements at numerous others.
    For the CBP ports in particular, this effort will address 
challenges resulting from years of use and deterioration, as 
most of our facilities were originally constructed four decades 
ago, with some dating back as many as 70 years to the 
Depression era.
    With increasing traffic and terrorist threats at our border 
crossings, these improvements are a vital step to ensuring that 
CBP can confront the ever-present threat to our national 
security while continuing to facilitate the flow of legitimate 
trade and travel across our Nation's borders.
    Thank you for the opportunity to testify before you today, 
and I would be happy to answer any of your questions at this 
time.
    Ms. Norton. Well, thank you, Mr. Frazier.
    Now, please help the Subcommittee understand--you and Mr. 
Guerin, perhaps--why there are Custom and Border Protection-
owned stations and GSA stations and why this work is divided as 
it is. Who owns what and why?
    Mr. Frazier. I will take a stab, and Mr. Guerin will, I am 
sure, supplement as necessary.
    In part, it really has to do with a matter of timing. Many 
of the facilities that we own actually predate the legislation 
that created the U.S. General Services Administration and that 
predate the legislation that actually created the Federal 
Buildings Fund itself. So, in many cases, there was no exchange 
of title during that process, and we actually retained, under 
the legacy agencies that were INS and the U.S. Customs Service, 
the title to those facilities.
    Those facilities actually, over time, have been 
reconstructed. Seven of those facilities have been 
reconstructed, and one of them was actually reverted to 
ownership by the U.S. General Services Administration.
    Ms. Norton. Is that the most efficient way to go about 
building important facilities in the United States, Mr. Guerin, 
to parcel it out among agencies which happen to have had the 
responsibility at one time or another?
    I just want your advice and counsel here.
    Mr. Guerin. The General Services Administration certainly 
helps CBP as much as possible to maintain and operate their 
ports of entry. We are working with them now to ensure that the 
projects that they are working with----
    Ms. Norton. Is there any functional reason for the division 
of labor here except that is the way it has always been?
    Mr. Frazier, you are not in the business of construction, 
generally, are you?
    Mr. Frazier. We actually are. We have a substantial 
construction inventory on our border patrol side.
    Ms. Norton. Yes. You are in the business of construction 
border control; but generally, your mission is what?
    Mr. Frazier. It is border enforcement.
    Ms. Norton. Yes. Well, you know, we have a lot of concerns 
up here about border control, so I am a little concerned about 
that. In reference to your mission, as a matter of fact, I 
really want you to keep your eyes on that border. That is one 
of the most controversial subjects in the Congress of the 
United States.
    Mr. Frazier. Actually, ownership of the ports of entry is 
an interesting conundrum in that 22-1/2 of the facilities, 
themselves, are owned by the private sector, and that is, 
actually, an additional challenge that we have to confront.
    Ms. Norton. Is that because you could not buy the land and 
were forced to lease facilities?
    Mr. Frazier. Similar to the ownership that we have of our 
facilities, those facilities actually predate much of the rule 
that would have normally changed them into Federal facilities. 
So, in that case, we are working actively in leasing 
arrangements.
    Ms. Norton. Does that present, from a security point of 
view, any particular concerns for you?
    Mr. Frazier. From a security point of view, it has not. We 
have been able to work very closely with GSA and our other 
Federal partners to resolve any of the issues associated with 
ownership thus far, as we are moving through the process; and 
in particular, a number of our private-sector counterparts have 
been very forthright in supporting the new----
    Ms. Norton. Oh, I don't blame them. You keep paying for the 
buildings over and over again. As long as you are leasing the 
buildings, I would love you to death, and anything you wanted 
me to do I would keep on doing.
    Mr. Guerin, I must say to you, when we have to find out 
these things in hearings, there is concern here--such concern, 
for example, that the administration itself bought a building 
that we had bought several times over in leases, a building 
that has been leased by the State Department forever.
    It seems to me, if one were trying to help this 
administration get out of the quagmire into which it fell by 
inheritance, one of the things would be to ask: Should we 
continue to pay for buildings multiple times? Because we 
continue to lease buildings that will never ever be released to 
the lessor again as long as the United States of America 
exists.
    What would be your recommendation as to when we find 
multiple facilities where this--look at how old these 
facilities are. I can understand exactly what Mr. Frazier is 
saying. There was no reason at that particular moment to do 
anything but grandfather them in. But over time, it would be 
interesting to know how many times we have paid for these 
buildings and to wonder how many more times we are willing to 
pay for these buildings and if there isn't some better way to 
proceed than to look in the face of waste and just continue 
right along.
    So what do you think should be done?
    Mr. Guerin. Well, I think, Congresswoman, you know 
certainly that GSA supports ownership by the Federal Government 
of all of the properties that we have.
    Ms. Norton. Well, I will tell you what, Mr. Frazier. I want 
a list of all of your privately owned sites--border stations or 
not--when they were first leased as well as their locations. We 
need that within 30 days.
    Ms. Norton. I must tell you that in addition to my work on 
this Committee, I am a Member of the Homeland Security 
Committee, so I am compelled to ask you whether there are any 
security issues associated with leasing sites post-9/11.
    Mr. Frazier. To date, we have not encountered a security 
issue related to the actual leasing activity.
    Ms. Norton. Have you considered what--I will tell you what.
    Before the Salahis conned their way into the White House, 
as a Member of the Homeland Security Committee, I had not 
considered, until I saw what happened, that they had pioneered 
a new way for al Qaeda and for just plain evildoers to reach 
the President, elected officials and just plain celebrities. 
Don't worry about the barriers; just pretend to be a celebrity, 
and people will be so impressed that that is all it will take.
    I am asking--and I use the words "post-9/11"--whether or 
not it is the best practice for us to lease buildings rather 
than to seek to own buildings that we know we will always need.
    I am not asking you to pay for them, Mr. Frazier. I am 
trying to find out what is the best practice. You are in the 
homeland security business. I would like your answer.
    Mr. Frazier. I think, from our perspective, we have found 
both fee simple ownership and leasing to be useful at different 
avenues.
    Ms. Norton. What is the relative use of both? Which is 
preferable?
    Mr. Frazier. It really depends on the strategy that we are 
trying to employ and the size and scope of the type of 
inventory that we are trying to modernize. In fact, in a number 
of instances where we do lease a private port of entry----
    Ms. Norton. I will tell you what I am going to do if I own 
one of these buildings in this bad economy: I am going to give 
you an offer you can't refuse, Mr. Frazier. The offer you can't 
refuse is to jack up your lease and dare you to do anything 
about it.
    Mr. Frazier. Well, thus far, we have not found that that 
has been----
    Ms. Norton. Well, do you know what, Mr. Frazier? I am going 
to ask you to go back to Border Patrol, which is a part of 
Homeland Security, and tell them that a Member of the Homeland 
Security and the Chair of this Committee asked them to consider 
what they would do if, in fact, someone took advantage of their 
knowing they have no place to go but where they are.
    I believe it is your obligation to consider that, even if 
there is not anything you can do about it at the moment. But I 
am distressed to hear that, post-9/11, you have not even 
considered it. I believe they would be within their legal 
rights. I believe land of the kind we are talking about has 
gotten increasingly dear and expensive.
    So I ask you, within 30 days, to tell me how Border Patrol 
is considering that scenario.
    Mr. Frazier. Of course.
    Ms. Norton. Thank you.
    Ms. Norton. I am going to ask the Ranking Member, before I 
go forward, if he has any questions.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    Mr. Guerin, among the projects included in your plan are a 
number of smaller border stations. The three sites in Maine had 
from 300,000 to over 900,000 personal vehicle entries in 2008.
    However, other sites not included in the plan had far more. 
I mentioned in my opening statement Laredo, Texas, which had 
over 6 million personal vehicle entries in 2008.
    Now, can you talk about how GSA develops its list of border 
station projects and why smaller GSA facilities seem to be 
given priority over larger facilities with more traffic? Is 
that part of the legislation? If you could, address that.
    Mr. Guerin. It actually is part of the legislation in that 
the funds were limited to $300 million, Congressman. We work 
with CBP on the priorities for our projects.
    The most important project to CBP on their list was the 
Mariposa port of entry project, which took up fully $200 
million of the $300 million available to land ports of entry. 
So we worked with CBP. We worked with the priorities of the 
projects that we had--you know, shovel-ready or close to 
shovel-ready--to ensure that we worked through the list to put 
projects in place that would create jobs as quickly as 
possible.
    Just the nature of the first project being $200 million of 
the $300 million limited our options to other smaller projects, 
other projects that needed funds to complete construction and 
designs for other projects that we knew were coming down the 
road very shortly and would be funded in future fiscal years.
    Mr. Diaz-Balart. All right. So most of the CBP-owned 
facilities are along the northern border; and as a result, 
nearly all of the Recovery Act funding is going to those 
facilities.
    In light of this, though, did GSA evaluate whether it 
should focus more on the southern border to ensure a more 
balanced approach to station modernization, or are you saying 
you did not have much of a choice because the money was spent 
or what?
    Mr. Guerin. Well, I think $200 million was spent on the 
southern border in the first project, so the quantity of 
projects was more on the northern border, but certainly, in 
dollars spent, more money was spent on the southern border in 
the Recovery Act.
    Mr. Diaz-Balart. Okay. In your testimony, you projected 
that over 60,000 job-years will be created from the $5.5 
billion that GSA----
    Mr. Guerin. Correct.
    Mr. Diaz-Balart. --received under the Recovery Act for 
Federal buildings.
    You also indicated that initial reports show that, as of 
October 30, GSA Recovery Act funding has created or retained 
780 direct jobs and that approximately 56 of those are related 
to port of entry projects.
    Now, as you know, and I mentioned it in my opening 
statement, last month a number of serious questions came up 
regarding the accuracy of the job numbers on the Recovery.gov 
Web site.
    How do you know that these figures are accurate? What 
mechanisms has GSA put into place to ensure accurate reporting 
in these numbers and also in future numbers to avoid what seems 
to be a pretty large trend?
    Mr. Guerin. That is a good question.
    We looked at multiple studies by economists to figure out 
how to project the numbers. In fact, OMB settled on a CEA 
analysis that showed that, with construction jobs, typically 
you use a factor of $92,000 per job. If you divide that into 
the $5.5 billion given to GSA, that is where the 60,000 job 
projection comes from. Those are job-years.
    That actually worked out very nicely with the information 
that we received from the recipient reporting, and GSA was 
actively one of the most active players in the recipient 
reporting process. We reached out to the recipients and very 
actively engaged them to ensure that they were reporting 
accurately. We provided templates for them to report, so we 
didn't have the situation of reporting a nonexistent 
congressional district, for instance.
    The numbers that we got back from the recipients matched up 
very well with the $92,000 figure. The total number of jobs and 
the total amount of money that was outlaid from the recipient 
reporting was very close to the $92,000 figure, so we are 
actually quite satisfied so far that that is a good number to 
use.
    Mr. Diaz-Balart. Good.
    So, again, as far as you can tell, you haven't gotten hit 
by the same issues that others have. I understand where your 
estimate numbers come from, but the actual numbers are coming 
from whom to you? I mean, are you getting it from----
    Mr. Guerin. The people who received funding from the 
Recovery Act.
    Mr. Diaz-Balart. They are the ones who are actually 
counting the jobs and are making sure that they are real?
    Mr. Guerin. Yes. Yes. The whole recipient reporting process 
is an expectation that the recipients of Federal funds will 
report those job numbers and funds received.
    Mr. Diaz-Balart. And will do so accurately?
    Mr. Guerin. And will do so accurately, correct.
    Mr. Diaz-Balart. So, at this stage, you really don't have a 
way to verify that, other than the fact that they are, you 
know, kind of adding up with your estimates?
    Mr. Guerin. As I said, Congressman, we reached out very 
proactively to the recipients to ensure that they reported 
accurately. And we gave them a lot of the sort of basic 
information to make their life easier as they reported back to 
us; and that paid off, I think.
    We got all but a few people reporting back, and we know who 
those people are. We are actually contacting them. We have 
contacted them, and we will continue to contact them to ensure 
that they report in the next go-around at the end of the 
December, so we will have those few stragglers reporting in as 
well.
    Mr. Diaz-Balart. Are there no site visits, for example, to 
verify--or something like that to verify that the reports that 
they are giving you are actually accurate?
    Mr. Guerin. Not so much in the recipient reporting process. 
But certainly GSA is on site on all of our projects, and we 
actively monitor who is on our projects to ensure that the 
projects are running smoothly and that the schedules and 
accuracy of information in terms of money spent is being well 
documented.
    Mr. Diaz-Balart. Right. I understand that.
    Again, you know, we obviously have what is a national 
embarrassment. From what we can tell, it looks like some of 
those who are doing the reporting are just not being accurate. 
So other than the fact that the numbers--I mean, look, there is 
a chance, is there not, that they are looking at your 
estimates, and then they are giving you the numbers based on 
those estimates? I mean, there is a chance that they are doing 
that.
    I am not saying that they would be, but there is no on-site 
counting of jobs other than by those who are receiving the 
money. That is what you are getting it from.
    Mr. Guerin. That is a true statement. It is a recipient 
report.
    Mr. Diaz-Balart. Right, which in many cases has proven to 
not be accurate as far as we can tell so far from just press 
reports.
    Mr. Frazier, in the 30-day review of spending by the CBP 
for land ports of entry under the Recovery Act, CBP states that 
the first two legal requirements for the projects funded by the 
Recovery Act include, number one, preserving and creating jobs, 
which I am glad to hear; and number two, assisting those most 
impacted by the recession. Yet it appears, however, of the top 
24 CBP projects, 9 of them are in States with the lowest 
unemployment rate at 4.2 percent.
    So how did CBP take into consideration the state of the 
local economies and unemployment rates in determining priority 
projects under the Recovery Act, particularly based on those 
two assumptions that I just mentioned that you all have?
    Mr. Frazier. The actual two governing criteria that were 
built into ours, that we actually used as part of our normal 
prioritization projects, were shovel readiness and the 
ownership distinctions that were drawn within the legislation 
itself.
    I will say that our current process is not designed to 
consider local economies when we are looking at prioritizing 
these facilities, in part because they are part of a national 
infrastructure, and we have to view them as part of a national 
border infrastructure. We don't view them as competing between 
two State or local interests.
    When we prioritize that process, we actually go through and 
assess all of the facilities that we operate against four 
categories of criteria. Those four categories themselves 
encompass about 60 distinct data points that we use as the 
basis of our initial needs assessment for those facilities.
    We then use the resulting information from that assessment 
process to give us an initial ranking of critical needs; and 
then we sensitize that by reaching out to our local 
stakeholders and operations folks, who can provide us 
information that would not normally be collected through a 
national data assessment. We use that then to establish our 
final ranking of need. Then we do what is called a project 
feasibility and risk assessment, and that actually allows us to 
determine the executability of a project in a given fiscal 
year.
    In particular with these projects, we had to assess that in 
light of the requirements to have these funds obligated as 
quickly as we could into the national economy and to ensure 
that we could have these funds obligated not less than 24 
months or by the end of fiscal year 2010.
    Mr. Diaz-Balart. That makes perfect sense to me, but that 
doesn't jive with, again, preserving and creating jobs as a 
priority and assisting those most impacted by the recession.
    Now, what you are saying makes sense on a regular day in a 
regular year, but if these funds were to create jobs--again, in 
the review, it says--and again I may be wrong--that this is 
preserving and creating jobs and is assisting those most 
impacted by the recession. Those don't seem to be part of what 
you just mentioned right now.
    Mr. Frazier. Well, I think that I would draw a distinction 
between sending funds to the community where the actual port is 
located and actually benefiting those impacted by the 
recession.
    Of course, most of the major construction entities that we 
have to contract with, be they large or small business, will, 
in fact, not be located in the small communities where a number 
of our facilities are located. So, by infusing money into the 
construction industry in particular, we view that as a way of 
ensuring that that industry is actually bringing on people to 
support these projects and move them forward.
    In most cases, we have also--where we did not directly 
contract with small businesses, we have actually asked the 
construction entities themselves to reach out into the small 
business community as part of their subcontracting for the 
various associated disciplines that they will employ as part of 
their final construction projects.
    So, while I cannot guarantee, for example, that all of the 
communities themselves which will have a port of entry project 
within their communities will see job increases within the 
confines of that community, we believe that by employing the 
acquisition strategy that we have utilized for these facilities 
that we are, in fact, ensuring that we are reaching into the 
small business community and that we are reaching into the 
various disciplines that will ultimately be where jobs are 
created.
    Mr. Diaz-Balart. I understand. I understand that you also 
have the big-picture issue of what your role is in keeping our 
Nation secure, et cetera.
    But, again, when we are dealing with this specific issue 
where, within the top 24 projects, 9 of them are in States with 
the lowest unemployment rate, that clearly is not assisting 
those most impacted by the recession. I understand where you 
are going, but those two things don't match.
    Mr. Frazier. Well, I guess, if you look at the unemployment 
rate per capita per State as being the one de facto factor that 
you would use in assessing that kind of criteria, then I 
wouldn't really have much of a response. I am not really 
trained in macroeconomics.
    I can say that by employing the acquisition strategy that 
we have, we were looking to infuse money into a national 
economy through the sectors that, of course, we can reach by 
doing construction.
    Mr. Diaz-Balart. Understood. Understood.
    Now, do you have any idea how many jobs have been created 
or are expected to be created by these projects?
    Mr. Frazier. I am sorry, sir. I couldn't----
    Mr. Diaz-Balart. I am sorry. How many jobs have been 
created or are expected?
    Mr. Frazier. To date, we have created more than 150 jobs. I 
think we are expecting as many as 4,000. Of course, most of our 
projects right now are in their early stages. They are in 
design, which does not, in fact, involve a number of the labor 
disciplines that you would normally employ as part of 
construction. However, our acquisition strategy is built on 
employing design/build across all of our projects. So, where 
those projects have been awarded, we are expecting those 
contractors will begin their subcontracting plans in the next 
months and that part of the process will see an increase in job 
creation.
    Mr. Diaz-Balart. Mr. Frazier, let me ask you the same 
question that I asked Mr. Guerin.
    You have also seen the reports and the questions about the 
accuracy of the job numbers on Recovery.gov. What mechanisms 
does CBP put into place or has it put into place to ensure that 
the data that you are going to be receiving or have received is 
accurate?
    Mr. Frazier. Sure.
    Similar to the U.S. General Services Administration, of 
course, the structure of the reporting for job creation is 
built to where the vendors themselves, the recipients of 
stimulus funds, are the initial reporters of job creation; and 
there is a brief period of time wherein the government is 
afforded an opportunity to review their submissions for 
accuracy.
    In CBP, we actually are employing independent project 
managers and construction managers to participate in all of our 
projects, and they will actually be the project leads for all 
of these various projects. They then are also part of our 
reporting reviewers to review the vendor reports.
    Of course, the reports we have had to date--again, I 
mentioned earlier--have not seen substantial growth in job 
creation. So most of the jobs that have been created associated 
with these projects are really on the design side, and most of 
our project managers actually work daily with those design 
teams, so we are quite familiar with them.
    Mr. Diaz-Balart. And lastly, the CBP spend plan includes 
about $15 million for the land port of entry in Whitetail, 
Montana, which according to the CBP 30-day review, averages 5 
vehicles per day. Is it--does that make sense to use taxpayer 
dollars on what--for an area that obviously doesn't have a lot 
of activity? And what types and number of jobs do you think 
will be created, for example, by that project.
    Mr. Frazier. I don't know the exact figures associated with 
that project. I am sure that is something we could come back 
with the estimates associated with that individual project. I 
can say that of course, in viewing these facilities from the 
perspective of our dual mission of securing the border and 
facilitating legitimate travel and trade, we view any 
authorized crossing as being an area where we need to ensure 
that the facilities and the infrastructure associated with that 
crossing are capable of supporting our mission and our 
operations.
    So from the standpoint that we view Whitetail, Montana as 
being the location of an authorized crossing, we believe that 
that facility along with any other port of entry needs to be 
maintained at a level to ensure that it can support our 
operations, and we don't view that as being a facility that is 
the port of entry for Whitetail, Montana. We view that as being 
an authorized port of entry for the United States of America. 
As a result we must ensure that that facility is capable of 
securing the border to the same measure of security that any 
port of entry that is in operation today can.
    Mr. Diaz-Balart. You also mention in your testimony that 
sensitivity analysis was part of the process of ranking 
projects.
    Mr. Frazier. Yes.
    Mr. Diaz-Balart. Can you talk more about this analysis and 
what factors you look at, are included as part of that 
sensitivity analysis?
    Mr. Frazier. Sure, the sensitivity analysis itself much 
like--is more akin to a standard statistical activity wherein 
you want to ensure that the factors that you are using in your 
aggregate data collection are not themselves sensitive to 
factors that you cannot collect as part of a national aggregate 
data set. And I will give you an example of that.
    A number of our other facilities are actually located in 
regions wherein the border crossing is associated with a large 
manufacturing center across the border. However, that happens 
to be regionalized and does not get counted as part of a 
national commodities collection set from data that we might 
collect for the Bureau of Transportation Statistics or other 
associated sets. But we can use information from that region to 
inform the actual workload capacity at that facility over time, 
and we actually reach out usually to the local stakeholders and 
to the operations at that region themselves to inform us as to 
whether or not the data that we have collected at the national 
level would be skewed in any way by changes in demographics 
associated with that locality itself.
    Mr. Diaz-Balart. Madam Chairwoman, two more if I may.
    Ms. Norton. Yes.
    Mr. Diaz-Balart. Thank you as always for being very 
generous.
    You highlighted in your testimony that shovel ready 
projects were given priority. Can you tell me how many of your 
projects are currently underway? When you mention that most of 
it is now, I guess, in design or whatever, how many of your 
projects are currently underway and what are the time lines for 
some of those projects?
    Mr. Frazier. Currently we have already awarded 17 design/
build projects out of the original 23 that we identified in our 
first spend plan. Currently we are planning to award an 
additional 18th project. I think Mr. Guerin mentioned it during 
his original opening statement. That will be awarded sometime 
in the next few weeks as a matter of fact. And then we will 
have six additional projects that were set aside specifically 
as small business projects. Those were scheduled to be awarded 
right now in the late February, March timeframe. Of the 17 
projects that have already been awarded, all of them are now 
approaching 60 percent design, and in order to expedite the 
process for moving those projects through design and ultimately 
into construction, we actually provided those vendors 
themselves as part of their initial submission 35 percent 
bridging documents. So we essentially did a portion of the 
design for them to ensure so that they could move expeditiously 
into the construction phases.
    We are expecting construction for those projects to start 
in the spring of this fiscal year and probably in the April, 
May timeframe, depending upon when the fall occurs, of course 
because our construction season is restricted by the actual 
weather patterns on the northern border. Except for one project 
that we currently have awarded, that will be in Antelope Wells, 
New Mexico. That project is actually expected to start 
potentially as early as March because they aren't subject to 
the same weather patterns in New Mexico.
    Mr. Diaz-Balart. Again it seems that a lot of them were 
actually not quite shovel ready, they were design ready as 
opposed to shovel ready. The American people I think--and I am 
not blaming you for this, but I am saying the American people 
kind of think of shovel ready as the design has been done, all 
you need is the money to start construction. So obviously that 
that has not been the case in a lot of them.
    Mr. Frazier. Well, from our standpoint because of the way 
that we have been able to actually do the design work for these 
projects in advance, all of these projects are now at design/
build acquisition. So there will be no additional acquisition 
activity associated with these projects. They are moving from 
design straight into construction on an expeditious timeline.
    Mr. Diaz-Balart. Great. And lastly, Madam Chairwoman, to 
both of you gentlemen, obviously we have seen all of these 
reports of inaccurate reporting, inaccurate statements given by 
those who were supposed to give the information. I would hope 
that you all are looking at that and trying to make sure that 
the information that you are getting regardless of who it is 
coming from is accurate. I would love, if you could get back to 
us, with just what it is that you are doing to make sure that 
those numbers are accurate, regardless of who they are coming 
from, and so that we can avoid some of those embarrassments and 
some of those fiascos that have taken place nationally with 
this money. I think the taxpayers deserve at least to know that 
the numbers they are given, whether they are good or bad, are 
accurate numbers. So I would really like it if you guys could 
get back to us as to what you are doing to make sure that those 
numbers are accurate. And not just rely on--I am not telling 
you that they are not great people, but obviously there have 
been some issues in the past and so let's try to address that 
now so that we do not have to read about in your case these 
issues coming up either.
    So thanks so much. Thank you, Madam Chairwoman.
    Mr. Frazier. Sure.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart.
    Let me compliment the administration for doing what no 
administration has ever even tried to do before, and that is to 
calculate jobs per funding by the United States Government. And 
let me indicate as well why I believe GSA has had a far better 
accuracy record. I indicated in my opening statement that, 
unlike virtually every other agency, GSA is on site and has 
control of its funds. That is why we are holding ourselves 
accountable as we hold GSA, the Smithsonian, and the EDA 
accountable. If, however, you look at what the administration 
has done, it is a very daring thing to do. It has--it is at 
least two steps removed. It hands out the money. The money goes 
to the States and from the States it goes to the localities. 
And somebody down there, way at ground zero level, has got to 
do the counting while they are doing the building.
    It is far easier for you, Mr. Guerin, and even you, Mr. 
Frazier, to be accurate, because you are directly responsible. 
That is not how we do construction in this country. We ask the 
States to do the construction. The States in turn ask down to 
the lowest jurisdiction to do the construction. That is called 
local control. So foreign administration to have the guts to 
say we are still going to hold you accountable is to 
essentially put itself in a position of mistakes because it is 
so far removed from the people who would have the basic 
information. And you know what I say? Keep on trying, because 
you have set an important precedent, and a precedent because it 
is the first of its kind, almost inevitably, which would almost 
inevitably produce the kind of mistakes that we have seen. And 
I compliment you both because you are directly responsible, 
because every GSA site has somebody on the ground from the 
Federal Government. Nobody from the Federal Government is on 
the ground for Eleanor Holmes Norton's District's 
infrastructure funds. Who is on the ground are people from the 
District of Columbia. Or if it is the State of Maryland, 
Maryland isn't on the ground. Prince George's may be on the 
ground and somebody beneath Prince George's may be on the 
ground and that is how that counting is going on. That is a 
very ambitious undertaking, cannot possibly be done except as a 
practiced way of doing business. And thank you for showing that 
the Federal Government today, unlike at any point in past, is 
willing to take on that task.
    Let me ask you, Mr. Guerin, why don't we rent courthouse 
space?
    Mr. Guerin. We do in fact rent some courthouse space.
    Ms. Norton. How much courthouse space in the United States 
of your inventory, what percentage is rented?
    Mr. Guerin. I do not know that, but I will certainly get 
that number for you. But we prefer to own, as you well know.
    Ms. Norton. Is it not the case that overwhelmingly you own.
    Mr. Guerin. Yes, yes.
    Ms. Norton. And you can hardly cite me an instance where 
through this Committee has gone any prospectus for a courthouse 
that was other than owned?
    Mr. Guerin. That is correct. The vast majority----
    Ms. Norton. I asked you for the reason. That is all I am 
trying to get on the record. Why do we own courthouses rather 
than lease? We lease almost everything today. Why don't you 
lease courthouses?
    Mr. Guerin. And the simple answer is because we are working 
on them in perpetuity and it is important to own them. As you 
said, we don't want to pay----
    Ms. Norton. One, we are going to own them in perpetuity so 
why would we pay somebody over and over again? What about 
security?
    Mr. Guerin. We can control security as a known facility.
    Ms. Norton. I commend you, Mr. Frazier, you who are 
supposed to be in the security business, that for the duration 
the United States Government has always owned courthouses 
before 9/11 for security reasons and because it was the best 
real estate practice. And I believe we have got to look at this 
notion. I don't suggest we go buy all the border stations that 
you could do that. But I would hope there would never ever be 
another leased border station if we could possibly help it.
    Mr. Frazier. At this time we do not pursue leased new 
facilities.
    Ms. Norton. Thank you very much.
    Let me ask you, Mr. Guerin, about something that you know 
is dear to the heart of this Committee, but we haven't found 
any evidence of it going on. Perhaps you can enlighten us, and 
that is the use of photovoltaic panels. With recovery funds are 
you trying to use voltaic panels, for example, in Mr. Diaz-
Balart's part of the country which would seem to be cut out for 
that kind of thing?
    Mr. Guerin. We are definitely using photovoltaic panels. We 
created a large array in the Denver Federal Center and we are 
adding to that array through the Recovery Act. We have a series 
of other projects as well that are using photovoltaics. We have 
numerous roof projects as part of the Recovery Act. And in many 
of those cases we are intending to add photovoltaics to the 
roofs as well as put arrays on the ground, on garages nearby, 
that kind of thing, to try to improve our energy performance.
    Ms. Norton. What about San Ysidro?
    Mr. Guerin. San Ysidro, I do not know. We are using 
photovoltaics in Mariposo.
    Ms. Norton. Apparently, you are not using that at the land 
port of entry.
    Mr. Guerin. Right, it is an opportunity. There are large 
canopies on the ports of entry that lend themselves to having 
PV panels on them, and I think we are going to use those very 
frequently.
    Ms. Norton. Now I am interested in these innovative 
technologies, particularly in light of the fact that these 
investments are supposed to save energy in the long run. And I 
want to know how you know before you decide on a particular 
energy conservation approach that the government will--are you 
guaranteed to make energy savings, Mr. Frazier and Mr. Guerin, 
as a result of the energy conservation mandate of stimulus 
funding? Do you guarantee that to the Federal Government, which 
is paying more up front almost always in order to make these 
savings?
    Mr. Guerin. Well, it is not just the Recovery Act, 
Congresswoman, it is numerous laws and regulations that have 
been put in place recently to ensure that GSA in operating its 
buildings improves energy performance. And we really think we 
can guarantee that. We are doing commissioning studies on the 
vast majority of the projects that we have underway. A lot of 
the reason that some of the projects haven't jumped into 
construction is because we want to ensure through a 
commissioning study that our projects are using the funds to 
the maximum extent possible to improve energy performance and 
we are actively engaged in those. Those studies are wrapping up 
now and will translate into construction work and jobs in the 
coming new year.
    Ms. Norton. Mr. Frazier.
    Mr. Frazier. And similar to the U.S. General Services 
Administration, of course we are also subject to all of the 
various laws, regulations, and executive orders that are now in 
place to promote and ensure the Federal Government is moving to 
a more energy efficient framework for all of its facilities. 
And similar to the U.S. General Services Administration and in 
fact I have to thank Mr. Guerin in part because we have been 
able to partner with them a great deal in the last several 
years to explore the use of a variety of alternative energy 
systems and to explore the use of a variety of conservation 
measures that are being built into the newest land ports of 
entry as part of our designs and ultimately into the now 
facilities themselves.
    We go through a number of activities to actually rate and 
assess the performance of those facilities. Currently we 
actually are conducting energy audits at a number of our 
locations, not just the land ports of entry, in fact at a 
number of our facilities, to determine what measure of 
additional conservation we will need to institute to reach the 
various benchmarks that have been in place through the various 
laws and regulations that are now in place.
    As part of our designing activity as well, we go through a 
number of kinds of study and analysis that Mr. Guerin 
referenced earlier to ensure that the designs themselves will 
be LEED certified, will provide the right measure of energy 
conservation and the right measure of performance as part our 
new facilities.
    In fact, if you look at the facilities that we currently 
operate, the 43 land ports in particular that we currently own 
and operate, most of them are so grossly out of date that we 
could not retrofit them to the extent necessary to actually 
bring them to the level of performance that would be required 
under current law.
    Ms. Norton. That is a very important point. If you were 
going to do anything with such old buildings today, it almost--
you are almost compelled not to be penny wise and pound foolish 
in retrofitting them. And I think you get to retrofit at a 
particularly opportune time because now we know, we know from 
the private sector who has been storming ahead on this, that 
you can calculate now in advance pretty reliably what you will 
reap in saved energy costs, and of course this Committee has 
been very high on that from the first energy bill we enacted 
and we applaud your work there.
    It is you, Mr. Frazier, who testified that your final 
procurement strategy enabled you to save the government about 
25 percent over your original cost estimates. How were you able 
to do that?
    Mr. Frazier. We actually employed a couple of mechanisms 
that we think were particularly beneficial. One, we actually 
developed our normal design standard into what we call design 
templates or design prototypes. You heard Mr. Guerin reference 
it as part of his opening statement. We have gone through over 
the last several years in working with the U.S. General 
Services Administration a number of efforts to actually 
standardize the various operational components that compose a 
land port of entry.
    I will give you some easy examples of that. If you look at 
a standard land port of entry, of course you will always on 
entering the port see a pre-primary lane and a primary lane 
booth where the actual officer is conducting their enforcement 
operations. Over the years in years past those were actually 
designed independently every time we had a new facility. Each 
time the design team relearned the process of what a land port 
of entry pre-primary lane has to do. In most cases those lanes 
were not designed to allow us to quickly adapt a lane for new 
technologies over time. So each time a new technology came on 
line we actually had to spend additional resource to go out and 
modify the lane to allow it to house the new piece of 
technology.
    Our current standardization effort has allowed us to 
develop lane components that are actually what we call plug and 
play lanes. They actually have temporary conduit vaults that 
you can open when you need to install new technology into the 
lane to run cabling directly into the lane, close the vault, 
install the piece of technology, and all of that without having 
to shut the lane down for more than 2 days worth of effort. It 
is a considerable amount of time savings for us, it is a 
considerable amount of funding savings for us. We are doing 
that across the port of entry, and in fact we have finished 
seven standard component sets now that encompass the pre-
primary, primary lanes and much of the secondary inspection 
areas. And we are now extending our look into the actual 
interior of the buildings themselves to begin to standardize 
all of those component sets as well. By the end of it you will 
have buildings that will reflect elements of distinction that 
give them the context of the environment that they sit within, 
that work within, but ultimately functioned in a standardized 
fashion across the northern and southern borders.
    Ms. Norton. First of all, in your work on your work on land 
ports of entry, are you using the same kind of standardization 
process or not, Mr. Guerin?
    Mr. Guerin. In fact, CBP and GSA work together on these 
components to ensure that we are using exactly the same types 
of technologies and adaptations to improve our ability to 
deliver.
    Ms. Norton. I am very pleased to hear about that. You can 
conform or tailor the building as appropriate, but these are 
after all the same kinds of facilities, the same United States 
Government. May I ask you, Mr. Guerin, whether you think such a 
standardization process should be used for courthouses in our 
country?
    Mr. Guerin. I think in large part the design guide that the 
courts provide, which GSA obviously also worked on with the 
courts, provides a lot of the same idea. They are not as 
standardized as the land ports of entry, but a lot of the 
components----
    Ms. Norton. You are telling me that there is a standard 
courthouse?
    Mr. Guerin. I am not telling you that, Congresswoman, but 
parts of the courthouse are being are becoming more 
standardized.
    Ms. Norton. Mr. Guerin, we have been moribund on 
courthouses for some time and this Committee does not intend to 
move with courthouses, I don't care how much money is 
authorized, until sharing courthouses is routinely built in, 
until you in fact have ownership of the courthouse business the 
way you have ownership of the land port of entry business, and 
until, if I may say so, the kind of standardization process you 
and Mr. Frazier have used so well here is used in courthouses. 
But we are unable to proceed in--is it L.A.--because they have 
a sense of what they need that the Federal Government is 
unwilling to spend money to construct. If we had begun with 
standardization, given the fact that it is L.A., we would have 
had to do things that we would not have to do in Washington, 
D.C., but we would have been able to begin saying this is how 
we do courthouses and every increment must be justified.
    So I must ask you where are we with the--I can only call 
it, to be polite, moribund courthouse program?
    Mr. Guerin. The recent authorizations that this Committee 
provided helped establish new criteria I think that are going 
to help the court and GSA ensure that our projects are 
appropriately designed to the requirements that you believe are 
important to the courthouse program.
    Ms. Norton. We certainly will need to see the elements I 
have just described before approving any more courthouses. You 
should bear that in mind because there may be more courthouses 
coming. It is a favorite of some Members of Congress. I hate to 
hold them up because GSA is in fact who is holding them up.
    But I just want you to know how dissatisfied we have been 
with that program, and especially with the failure to take back 
the program from the courts who are even less than Mr. Frazier 
in the building business, but have had more to do with building 
courthouses than is the mandate of Article 3 courts, who have 
no mandate whatsoever to do that and have wasted tons of money 
of taxpayer dollars.
    I would like to know particularly if you have been able, 
Mr. Frazier, for example, to come in, boy, do I congratulate 
you for this, 5 percent under project costs. What you have done 
with the rest of the money?
    Mr. Frazier. Actually as part of the development of our 
initial spend plan that of course reflected 23 projects, we 
actually scoped 33 projects and have actually have already 
prioritized those.
    Ms. Norton. So you were able to actually retrofit or 
rehabilitate more projects?
    Mr. Frazier. We are expecting to do right now with the 
savings we have generated with the first 17 projects awards 
will be an additional 29--an additional 5 for a total of 29 
locations. And we are of course expecting commensurate savings 
from the next six projects that we award. Assuming that those 
savings are also generated, we could do as many as four more, 
leaving us with 33 total design/build projects.
    Ms. Norton. That is very unusual to hear from a Federal 
bureaucrat. So let me hear GSA's report on what percentage 
below, if any, the original projected costs have your projects 
come in at?
    Mr. Guerin. We are not quite as lucky as CBP, but we are--
--
    Ms. Norton. Wait a minute. Is this a matter of luck? Roll 
the dice right now then. Let's see if I can get you to be some 
more luck.
    Mr. Guerin. We are experiencing savings of 8 to 10 percent 
on average for the projects awarded so far.
    Ms. Norton. That is a rather substantial difference.
    Mr. Guerin. I'm sorry?
    Ms. Norton. That is a rather substantial difference.
    Mr. Guerin. It is a rather substantial difference.
    Ms. Norton. Why the difference?
    Mr. Guerin. I can only speculate.
    Ms. Norton. Mr. Frazier, do you have any insight?
    Mr. Frazier. I wouldn't speak to the deferential itself, 
but I can say that in part a number of the POEs we work on are 
smaller and therefore less complicated as a total construction 
project. So we were able to do a lot of the design prototyping 
for those facilities at the outset whereas most of the GSA 
facilities that we put at the top of our priority list are 
fairly substantial facilities that have very complicated 
construction designs and construction phasing associated with 
them. In that case it is typically difficult to generate the 
kinds of savings that we see.
    Ms. Norton. You know, Wal-Mart has been such a successful 
company, precisely because it doesn't keep reinventing the 
wheel and the kind of design prototyping that you were 
describing is routine, although communities obviously force 
them to tailor their stores as well.
    Mr. Guerin, to what extent that is measurable does the GSA 
engage in design prototyping?
    Mr. Guerin. The GSA doesn't do a lot of prototyping on a 
total building scale. We do prototyping, as we talked about 
earlier, in components of buildings. But each building is 
unique, each building is located in a particular place, each 
building has its own challenges in terms of site.
    Ms. Norton. That is not true for border patrol stations.
    Mr. Guerin. We do not work on border patrol stations 
typically. The land ports of entry program, they are actually 
very unique aspects of land ports of entry, elevation changes, 
railroad----
    Ms. Norton. More so than border patrol stations.
    Mr. Guerin. I am sorry?
    Ms. Norton. More so than border patrol stations?
    Mr. Guerin. I believe so, Congresswoman, because they are 
located in a particular location that is presidentially 
directed, actually internationally directed to a specific spot 
on the map, whereas a border patrol station typically can be 
located in sort of a large swath of area depending on CBP 
requirements. But each land port of entry is a unique facility. 
We have use adaptation, we have tried that in several 
locations. The component process that we are talking about with 
the----
    Ms. Norton. I would ask you, Mr. Guerin, to look at the 
design prototyping that the Custom and Border Patrol uses and 
within 30 days submit to this Committee whether or not you 
think any of it is applicable to GSA. If we don't find ways to 
pattern build, we are not going to be building at all. The fact 
is that you don't build that much anymore. So I am not 
suggesting that you are all over the country building, 
increasingly you lease and that is one of the great issues. But 
where in fact you do build, and the most prominent example is 
courthouses, one would hope that we would not consider every 
courthouses a world unto itself. That is what has given the 
judges license to have ceilings that you would only have found 
in the 19th century, multiple kitchens and facilities that are 
unheard of and unknown in the Federal Government, something 
almost approaching corruption. But they don't consider it that 
way, because if the GSA says you can do it they figure the 
rules must say so. So we would ask you to look at what the 
Border Patrol, since it does one kind of building normally, and 
within 30 days indicate to us whether or not for courts--I am 
not asking to you look at every kind of building you do but for 
courthouses--in the future, somewhere down the pike--I am not 
asking you to do anything in the immediate future--some kind of 
design prototyping could be perfected.
    Mr. Guerin. Okay.
    Ms. Norton. Excuse me?
    Mr. Guerin. I said okay.
    Ms. Norton. Okay. I don't have a lot of questions. This 
division of funds between the two agencies was done at what 
level; were you both asked for your input? Because you are not 
building, Mr. Frazier, for the most part. It seems to me you 
are not building at all. You are building, yet the bulk of the 
money, or more of the money, goes to Customs and Border 
Protection. How is that division decided upon, and on the 
northern border at that?
    Mr. Guerin. We had anticipated--well, the legislation 
obviously dictated the split of the money. I don't think that 
was a decision of the two executive----
    Ms. Norton. The appropriators did it, in other words?
    Mr. Guerin. I believe that is----
    Ms. Norton. With the money. The administration came up with 
a bulk figure of 720 million, or billion or whatever. I just 
want to make sure how--it would seem, Mr. Frazier, that there 
were a lot of deteriorated buildings along the northern border. 
Is that it? There was a particular need? Of course, as the 
GSA--a GAO report coming--and that is not one we requested. So 
there were folks up there on the northern border who wondered 
about the amount apparently.
    Mr. Frazier. I would say that for our facilities prior to 
the enactment of the stimulus legislation itself we have not 
been able to do major reconstruction of a facility that we own 
since we were created and probably in 3 decades before that. So 
most of those facilities are in a substantial state of 
disrepair right now.
    I will also say and forgive me, Madam Chairwoman, we 
actually on an annual basis do about 500 to $700 million in 
major construction.
    Ms. Norton. What kind of construction? You don't build all 
those border stations, do you?
    Mr. Frazier. We actually build--and I am probably going to 
get in trouble for saying this, because I will say that I only 
do ports of entry, but we build the fence projects as well, we 
build border patrol stations, we build air and marine operation 
facilities, and we actually do build to suit leasing at a 
number of other locations as well.
    Ms. Norton. So you must have learned how to do pattern 
design building. I would like GSA to take a look at how you do 
it then.
    Mr. Frazier. Yes, ma'am.
    Ms. Norton. Apprenticeship, this has been a big concern of 
this Committee and we do have apprenticeship, your 
apprenticeship programs is going to begin here in the District 
of Columbia. Would you report on the status of apprenticeship 
programs? I asked that not only because it is a job creation 
exercise as well, but because the skilled construction trade 
cohort is aging out. These people are retiring or about to 
retire and this is-- they have good pensions, certainly if they 
are union journeymen and so there is every incentive to get out 
now. So the apprenticeship program is aimed at, as well, 
replenishing this important sector in the United States.
    So I need to know whether in each of your projects there 
are apprenticeship programs.
    Mr. Guerin. I will speak to the GSA projects. There is a 
requirement in each of the contracts for large construction 
projects to have an apprenticeship program. So it is active and 
happening in each of our large construction projects.
    As you know, there is also a pre-apprenticeship program 
that Congress authorized $3 million for. We have spent 
approximately $2 million. Our first graduating class here in 
Washington is happening next weak. Congressman, I understand 
you are going to speak at that event and I appreciate that very 
much. We are in the throes of the second solicitation to spend 
the rest of those funds. We have proposals in and we are 
evaluating those now. So we are getting ready to proceed with 
the rest of the spending on that program.
    So in summary, we have an apprenticeship program as well as 
pre-apprenticeship programs happening right now.
    Ms. Norton. Mr. Frazier.
    Mr. Frazier. Candidly, we don't have an apprenticeship 
program as part of our construction projects themselves. Now I 
will say that as part of our acquisition strategy what we have 
tried to do is expand beyond the normal pool of design teams 
and construction firms that would normally be involved in a 
land port of entry project, to in fact encourage the growth 
inside the construction sector of an expertise associated with 
this type of construction. Land port of entry construction has 
typically been proven to be a particularly challenging kind of 
project because of the number of interests involved and the 
various complexities of the facilities themselves. So as part 
of our acquisition strategy we are looking to, either through 
subcontracting or direct to small business contracting, 
encourage growth of both design firms and the construction 
disciplines themselves that are more experienced in this kind 
of construction activity.
    Ms. Norton. Mr. Frazier, I am going to ask you to have a 
look at Mr. Guerin's apprenticeship program even as I have 
asked him to take a look your pattern design program. It is not 
acceptable to have Federal funds being used on a construction 
project today without doing some kind of apprenticeship 
development on that project. You are not developing the 
workforce. And the important thing about the administration's 
work is not geared only to lifting the economy up, it is very 
forward looking, and given the amount of work you do, and you 
have described defense work, work well beyond your own work, it 
is inconsistent with how this administration has proceeded not 
to be preparing people for the work that you will be doing. And 
I have to tell you that there will be criticism of Federal 
projects that are not preparing for the workforce of the 
future.
    Much of that workforce will be people of color and women. 
These are people who faced intentional discrimination for 
decades. The industry has been open now for a number of decades 
as well, but there was no government funding as there was in 
the 1960s and 1970s, wiped out at about 1980, and what we have 
now is a very embarrassing construction industry. It is a 
largely white male industry. It is an industry that is that way 
not because of the old discrimination patterns of the past, but 
because government funding has not been there to assist the 
industry, much less government monitoring. We are making up for 
that now. I don't think this administration would want to put 
itself in the same bag as prior administrations, which is 
feeding money into an almost 100 percent white male workforce 
and doing nothing to prepare younger people, people from the 
very rural areas that you are acquainted with, the areas that 
may not be at the center or the epicenter of the project 
itself. You don't want to be scarred by that process, not with 
this many Federal funds.
    And I must tell you, as a lawyer, there is, in my judgment, 
a cause of action against the government under Title VI of the 
Civil Rights Act and the 14th amendment of the United States. 
You cannot use government money to reinforce discriminatory 
patterns, even if you are not the originator of those patterns.
    Be forewarned. An administration with the values of this 
administration should not only be forewarned, it should be 
proactive.
    So, Mr. Frazier, could I ask you to look at Mr. Guerin's 
program and get back to us within 30 days as to whether or not 
you think you might create a similar apprenticeship program?
    Mr. Frazier. We would be happy to.
    Ms. Norton. Appreciate it.
    Final question, small business plans. The President has 
been speaking out about the failure of the banks to follow 
through with the job creation arm of our sector, the small 
business sector, they are dying on the vine. And all of us are 
therefore looking to see whether with government generated 
funds there are small business plans that are in fact employing 
small businesses and to what extent that is happening.
    I would like each of you to describe your own small 
business plans, if any.
    Mr. Guerin. The General Services Administration has a long 
history of encouraging use of small business. We have very high 
goals for ourselves and we achieve them, try to achieve them 
every year. I think we have hit most of them except for a few 
disabled veterans goals last year, I believe.
    Ms. Norton. Now I am talking about at the moment for the 
stimulus projects.
    Mr. Guerin. I understand.
    Ms. Norton. The Recovery Act funding. What were the goals, 
how are they being met? What can you tell me specifically about 
your small business plans?
    Mr. Guerin. Specifically, Congresswoman, we have the same 
goals for small business for the Recovery Act projects as we 
have for the rest.
    Ms. Norton. And what is that?
    Mr. Guerin. We have specific numbers, if you will bear with 
me for just a second.
    Ms. Norton. While he is looking, Mr. Frazier, would you?
    Mr. Frazier. Yes, Ma'am. Of the original 23 projects that 
we identified for design/build, six were set aside as direct 
small business design/build construction projects. The 
remaining 17 we actually built into each of those projects with 
our partners, the Army Corps of Engineers and the U.S. General 
Services Administration. The small business goals that they 
themselves instituted as part of the IDIQ awards. So for the 
core multiple award task order contracts, they had a 70 percent 
goal for set-aide as part of the entire contract of which we 
would probably see 30 to 40 percent set-aside as part of small 
business in each phase. So each phase, design, and construction 
would have the same goals attached to it. And GSA has a very 
similarity set of goals built into it their IDIQs as well.
    For all of our backup projects, because we are no longer on 
the 100--the original legislation had a 180-day award timeline 
set into it. For our backup projects they are no longer part of 
that original timeline. So we are actually looking at doing 
more small business direct for any of those projects as we are 
moving forward.
    Ms. Norton. And you say at each phase?
    Mr. Frazier. For design phase and for the construction 
phase.
    Ms. Norton. That is a very important and very good to hear. 
We would like within 30 days to get a copy of your small 
business plan and of the results thus far.
    Mr. Frazier. Yes, ma'am.
    Ms. Norton. Mr. Guerin.
    Mr. Guerin. Congresswoman, we are moving into our smaller 
projects where small business set-asides are appropriate. Right 
now a lot of the commissioning studies are happening and they 
will result in single system projects and projects that are 
very appropriate for small business set-aside contracts.
    We have a number of goals that I described. Roughly 37 
percent of our total is set aside for small business. We expect 
to achieve those goals and we have a series of numbers broken 
down below that for various specific set-asides. So we are 
expecting to, as I said, achieve the same kind of performance 
that we have in the past with the Recovery Act projects, and 
the projects now coming into fruition for construction are 
going to start really helping us towards achieve those goals.
    Ms. Norton. Mr. Frazier got my attention by speaking about 
the set-asides for each phase. It is one of the great 
complaints. Could we have your, same for you, Mr. Frazier, a 
copy of your small business plan, the results thus far within 
30 days?
    Mr. Guerin. Yes.
    Ms. Norton. Thank you very much. Very helpful testimony. We 
congratulate you both on your figures, notwithstanding the 
criticism, and the criticism may have been well placed 
elsewhere, but certainly both of you have reported statistics 
that appear to us to be credible. We believe you are in a 
better position to give credible statistics because you are 
directly involved, but we also appreciate what looks like the 
on-schedule timing. By the way, before I go, Mr. Guerin has to 
2011 for completion--for full obligation. You, Mr. Frazier, I 
think have only to 2010.
    Mr. Frazier. That is correct.
    Ms. Norton. Are you on schedule? He has a little more time 
than you do.
    Mr. Frazier. In spite of the fact that I don't do as much 
construction as Mr. Guerin does, we are pretty good at moving 
these forward. So we are on schedule to have all of our 
construction projects awarded well in advance.
    Ms. Norton. Well in advance of the end of 2010.
    Mr. Frazier. Fiscal year to 2010, yes, ma'am.
    Mr. Guerin. And Congresswoman, we have to obligate $5 
billion by the end of 2010 and we have $500 million that can 
move into 2011, and we are also on track to deliver the $5 
billion by the end of 2010.
    Ms. Norton. Very good, Mr. Guerin.
    The Ranking Member----
    Mr. Diaz-Balart. No. Thank you, Madam Chairman.
    Ms. Norton. Thank you, sir, and thank you both for this 
very useful testimony.
    [Whereupon, at 4:09 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






</pre></body></html>
